APPENDIX
Table of Contents
Page
Appendix A (Opinion, United States Court of Appeals For The Ninth Circuit
filed May 14, 2020)....................................................................................... la
Appendix B (Order Denying Motion For Reconsideration, United States
District Court For The District Of Hawaii filed April 23,2019)...............

4a

Appendix C (Opinion, United States District Court For The District
Of Hawaii filed March 21,2019)......................................................

9a

Appendix D (Order Denying Petition For Panel Rehearing And Rehearing
En Banc, United States Court of Appeals For The Ninth Circuit
filed August 31, 2020)................................................................................. 21a
Appendix E (Excerpts From Complaint filed July 18, 2018 with United States
22a
District Court For The District Of Hawaii
Appendix F (Defendant's Memorandum in support of Motion to Dismiss filed
October 29, 2018 with United States District Court For The District Of
28a
Hawaii
Appendix G (Excerpts From Rule 59(e) Motion for Reconsideration filed April
17, 2019 with United States District Court For The District Of Hawaii..... 41a
Appendix H (Article dated March 20, 2018, Posted on the Official Website of
Kelley Drye & Warren LLP at https://www.kelleydrye.com/NewsEvents/Publications/Client-Advisories/Korea-s-Financial-Supervisory-Service43a
Retains-Sove

: 9-1, Page 1 of 3

Case: 19-16073, 05/^/p2pi|Z

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
MAY 14 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

No. 19-16073

KAREN C. HAN,

D.C.No. 1:18-CV-00277-HG-KJM

Plaintiff-Appellant,
v.

MEMORANDUM*
YANGRAI CHO,
Defendant-Appellee.
Appeal from the United States District Court
for the District of Hawaii
Helen W. Gillmor, District Judge, Presiding
Submitted May 6,2020**
Before:

BERZON, N.R. SMITH, and MILLER, Circuit Judges.

Karen C. Han appeals pro se the district court’s judgment dismissing her
diversity action alleging fraud and civil conspiracy claims. We have jurisdiction
under 28 U.S.C. § 1291. We review de novo a dismissal for lack of personal
jurisdiction. CollegeSource, Inc. v. AcademyOne, Inc., 653 F.3d 1066, 1073 (9th

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
*«

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

001a

Case: 19-16073, 05/14/2020, ID: 11690440, DktEntry: 9-1, Page 2 of 3

Cir. 2011). We affirm.
The district court properly dismissed Han’s action for lack of personal
jurisdiction because Han failed to allege facts sufficient to establish that defendant
Cho had continuous and systematic contacts with Hawaii to establish general
personal jurisdiction, or sufficient minimum contacts with Hawaii to provide the
court with specific personal jurisdiction over Cho. See CollegeSource, Inc., 653
F.3d at 1074-76 (discussing requirements for general and specific personal
jurisdiction).
The district court did not abuse its discretion in denying Han’s motion for
reconsideration because Han failed to establish any basis for relief. See Sch. Dist.
No. 1JMultnomah Cty., Or. v. ACandS, Inc., 5 F.3d 1255, 1262-63 (9th Cir. 1993)
(setting forth standard of review and grounds for reconsideration under Federal
Rule of Civil Procedure 59(e)).
The district court did not abuse its discretion in denying Han’s request for
jurisdictional discovery because Han failed to demonstrate that the requested
discovery would have yielded “jurisdictionally relevant facts.” Boschetto v.
Hansing, 529 F.3d 1011,1020 (9th Cir. 2008) (setting forth standard of review and
explaining that the denial of a request for jurisdictional discovery “based on little
more than a hunch that it might yield jurisdictionally relevant facts [is] not an
abuse of discretion”).

2

002a

19-16073

Case: 19-16073, 05/14/2020, ID: 11690440, DktEntry: 9-1, Page 3 of 3

The district court did not abuse its discretion by dismissing Han’s complaint
without leave to amend because amendment would have been futile. See
Cervantes v. Countrywide Home Loans, 656 F.3d 1034, 1041 (9th Cir. 2011)
(setting forth standard of review and explaining that a district court may deny leave
to amend if amendment would be futile).
AFFIRMED.

3

003a

19-16073

Case l:18-cv-00277-HG-KJM ^ppQ\f0i|o^23Q Page 1 of 5

PagelD#:306

MINUTE ORDER
CASE NUMBER:

CV NO. 18-00277 HG-KJM

CASE NAME:

Karen C. Han v. Yangrai Cho

ATTY FOR
PLAINTIFF:

Pro Se

ATTYS FOR
DEFENDANT:

Jeff Ray, Esquire
Nadine Y. Ando, Esquire

I.

JUDGE:

Helen Gillmor

DATE:

April 23, 2019

BACKGROUND

On March 21, 2019, the Court issued an ORDER GRANTING
(ECF No. 25).
DEFENDANT'S MOTION TO DISMISS.
On the same date, the Court entered Judgment in favor
(ECF No. 26).
of the Defendant.
On April 17, 2019, Plaintiff Karen C. Han, proceeding
pro se, filed PLAINTIFF'S MOTION FOR RECONSIDERATION
(ECF No. 29).
PURSUANT TO FED. R. CIV. P. 59(E).
II.

STANDARD OF REVIEW

Plaintiff's Motion moves for reconsideration pursuant
to Federal Rule of Civil Procedure 59(e) and District of
Hawaii Local Rule 60.1.
The Court construes the Plaintiff's filing liberally
given her pro se status. Ballisteri v. Pacific Police
Pep't, 901 F.2d 696, 699 (9th Cir. 1990) .
A.

Fed. R. Civ. P. 59

A party may ask the court to reconsider and amend a
previous order pursuant to Federal Rule of Civil Procedure
59(e). White v. Sabatino, 424 F.Supp.2d 1271, 1274 (D. Haw.
2006).
Fed. R. Civ. P. 59(e) offers "an extraordinary remedy,
to be used sparingly in the interests of finality and
1

004a

Case l:18-cv-00277-HG-KJM Document 32 Filed 04/23/19 Page 2 of 5

PagelD#:307

conservation of judicial resources." Carroll v. Nakatani,
342 F.3d 934, 945 (9th Cir. 2003) (internal citation
omitted).
A motion for reconsideration must set forth facts or
law of a strongly convincing nature to induce the court to
reverse its prior decision. Na Mamo O Aha Ino v. Galiher,
60 F.Supp.2d 1058, 1059 (D. Haw. 1999).
The Ninth Circuit Court of Appeals has set forth the
following grounds justifying reconsideration pursuant to
Rule 59(e):
(1)

to correct manifest errors of law or fact upon
which the order rests;

(2)

to present previously unavailable evidence;

(3)

to prevent manifest injustice; or,

(4)

to amend the order due to an intervening change in
controlling law.

Allstate Ins. Co. v. Herron, 634 F.3d 1101, 1111 (9th
Cir. 2011).
A motion to alter or amend a judgment must be filed no
later than 28 days after the entry of judgment. Fed. R.
Civ. P. 59 (e).
B.

District of Hawaii Local Rule 60.1

The District of Hawaii has implemented the standards
for reconsideration pursuant to Fed. R. Civ. P. 59(e) in
Local Rule 60.1.
Local Rule 60.1 provides that Motions for
Reconsideration based on manifest errors of law or fact must
be filed and served not more than fourteen (14) days after
the court's written order is filed.
III. Plaintiff's Motion for Reconsideration Is Untimely
Plaintiff's Motion claims that the Court's March 21,
2019 ORDER GRANTING DEFENDANT'S MOTION TO DISMISS (EOF No.
(Pla.'s
25) contains manifest errors of law and fact.
2

005a

Case l:18-cv-00277-HG-KJM Document 32 Filed 04/23/19 Page 3 of 5

PagelD#:308

Memorandum at p. 6, ECF No. 30).
The timing of Plaintiff's Motion is governed by Local
Rule 60.1(c), which requires a Motion to Reconsider based on
manifest errors of law or fact to be filed within 14 days of
the order being entered.
The Court issued its Order on March 21, 2019.
Plaintiff mailed her Motion to Reconsider on April 15,
(Mailing Documentation, ECF No. 29-1).
2019.
Plaintiff's Motion was mailed 25 days after the Court
issued its Order, well past the 14 day deadline.
Plaintiff's Motion for Reconsideration is untimely pursuant
to District of Hawaii Local Rule 60.1.
IV.

Reconsideration Is Not Warranted

Even if it was timely filed, Plaintiff's Motion for
Reconsideration is without merit and this Court lacks
personal jurisdiction over the Defendant Yangrai Cho.
First, Plaintiff's Motion has not presented any change
in controlling law.
Second, Plaintiff has not demonstrated that the
evidence that she attached to her Motion for Reconsideration
is previously unavailable.
A motion for reconsideration
P. 59(e) may not present evidence
that could have been presented at
decision. Kona Enterprises, Inc,
F.3d 877, 890 (9th Cir. 2000).

pursuant to Fed. R. Civ.
or raise legal arguments
the time of the challenged
v. Estate of Bishop, 229

Plaintiff reiterates arguments that she believes that
the Court has personal jurisdiction over the Defendant based
on property he owns in Hawaii. She appears to now claim
that Defendant Cho is a citizen of the State of Hawaii.
Plaintiff bears the burden of demonstrating that the
Court has personal jurisdiction over a Defendant and she
continues to fail to do so. ColleqeSource, Inc, v.
AcademvOne, Inc., 653 F. 3d 1066, 1073 (9th Cir. 2011). The
Complaint specifically alleged Defendant was a citizen of
South Korea.
(Complaint at 1 7, ECF No. 1). Plaintiff
3

006a

Case l:18-cv-00277-HG-KJM Document 32 Filed 04/23/19 Page 4 of 5

PagelD#:309

(ECF No.
served the Complaint on Defendant in South Korea.
9). Plaintiff has not submitted any evidence to demonstrate
that the Court has personal jurisdiction over the Defendant.
Plaintiff's Motion for Reconsideration provided alleged
"new evidence." The evidence is not authenticated and
purports to be an online news article dated March 14, 2019.
(Ex. 1, ECF No. 30-1). The article was published a week
before the Court issued its Order. The article is not new
as it could have been presented at the time of the
challenged decision. Kona Enterprises, Inc., 229 F.3d at
890.
Even if considered, the article does not alter the
Court's analysis. The article is allegedly translated by
Plaintiff's husband.
(Id. at pp. 1-2). The evidence
purports to state that Defendant retired from Hankook Tire
Incorporated, an entity for whom Plaintiff attempts to
pierce the corporate veil in her Complaint. The article's
translation says nothing about Defendant residing or living
in Hawaii.
Plaintiff does not present any other evidence to
warrant reconsideration.
Third, Defendant has not presented any basis upon which
to find there was an error in the Court's decision. She has
not presented any new facts or law that would support
reversal of the Court's prior decision.
Plaintiff argues that the Court improperly considered
Plaintiff's service of process on Defendant in South Korea.
The Court's consideration was proper. The Court considered
the Notice as part of its analysis that Plaintiff failed
meet her burden to establish personal jurisdiction.
Plaintiff's lawsuit relates to corporate entities
engaging in agreements that took place in Malaysia and Korea
more than 20 years ago. Plaintiff's suit and her Motion for
Reconsideration fail to recognize the jurisdictional
requirements for suit in the District Court for the District
of Hawaii. The Complaint also appears to have severe
deficiencies with respect to the statute of limitations and
issues of standing relating to the corporate entities at
issue.
Plaintiff's disagreement with the Court's previous
4

007a

Case l:18-cv-00277-HG-KJM Document 32 Filed 04/23/19 Page 5 of 5

PagelD#:310

order is an insufficient basis for reconsideration. White,
424 F.Supp.2d at 1274; Leonq v. Hilton Hotels Corp., 689
F.Supp. 1572, 1573 (D. Haw. 1988).
Plaintiff's MOTION FOR RECONSIDERATION (ECF No. 29) is
DENIED.
No further Motions may be filed without leave of Court.
The Clerk of Court is ORDERED to CLOSE THE CASE.
Submitted by: Rachel Sharpe, Courtroom Manager

5

008a

Case l:18-cv-00277-HG-KJM

|)^l/0 Page 1 of 12

PagelD #: 248

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF HAWAII
KAREN C. HAN
Plaintiff,
vs.
YANGRAI CHO,
Defendant.

)
)

CIVIL NO. 18-00277 HG-KJM

)
)
)
)
)
)

ORDER GRANTING DEFENDANT'S MOTION TO DISMISS (ECF No. 10)
Plaintiff Karen C. Han, an individual, sued Defendant
Yangrai Cho, an individual.

Plaintiff Han claims that she has

been injured by various corporations associated with Defendant
Cho.
Defendant Cho filed a Motion to Dismiss Complaint (ECF No.
10) based on lack of subject matter jurisdiction pursuant to
Fed. R. Civ. P. 12(b)(1), lack of personal jurisdiction pursuant
to Fed. R. Civ. P. 12(b) (2), failure to state a claim upon which
relief can be granted pursuant to Fed. R. Civ. P. 12(b) (6), and
failure to join a party under Fed. R. Civ. P. 19 pursuant to Fed.
R. Civ. P. 12 (b) (7) .
The Court lacks personal jurisdiction over Defendant Cho.
Defendant's Motion to Dismiss Complaint (ECF No. 10) is
GRANTED.

1

Case l:18-cv-00277-HG-KJM Document 25 Filed 03/21/19 Page 2 of 12

PagelD#:249

PROCEDURAL HISTORY
On July 18, 2018, Plaintiff Karen C. Han filed a Complaint.
(ECF No. 1).
On October 29, 2018, Defendant Yangrai Cho filed MOTION TO
DISMISS COMPLAINT.

(ECF No. 10).

On November 13, 2018, Plaintiff Han filed her Opposition.
(ECF No. 17).
On January 2, 2019, Defendant Cho filed his Reply.

(ECF No.

20) .
BACKGROUND
On July 18, 2018, Plaintiff Han filed a Complaint.
ECF No. 1).

(Compl.,

Plaintiff Han is a citizen of the State of Texas.

(Compl. at M 6, 9, ECF No. 1).
Plaintiff Han brings suit in her individual capacity and as
the "real party in interest" for Peninsula Asset Management
(Cayman) Ltd.

("Peninsula Asset Management").

(Compl. at S18I 6,

15, ECF No. 1).
Han founded Peninsula Asset Management in December 1995 to
engage in the business of providing financial services to
investment banks in international finance centers.

(Id.)

Peninsula Asset Management was a Grand Cayman Islands corporation
and is now defunct.

(Id.; Memorandum at p. 2, attached as Ex. A

to Def.'s Mot. to Dismiss, ECF No. 10-2).

2

Case l:18-cv-00277-HG-KJM Document 25 Filed 03/21/19 Page 3 of 12

PagelD#:250

Plaintiff Han asserts claims solely against Defendant
Yangrai Cho.
Korea.

Defendant Cho is a citizen of the Republic of

(Compl. at 1 7, ECF No. 1; Def.'s Mot. to Dismiss at p.

3, ECF No. 10).
The claims asserted against Defendant Cho are based on his
status as shareholder and management figure in a group of
corporations that include Hankook Tire Worldwide Co., Ltd. and
Hankook Tire Co. Ltd.,
"Hankook Tire").

(these entities are referred to as

(Compl. at SISI 73-94, ECF No. 1).

The Hankook

Tire entities are corporations organized and existing under the
laws of South Korea, with their principal place of business in
Seoul, Republic of Korea.

(Compl. at SI 7, ECF No. 1; Memorandum

at p. 2, attached as Ex. A to Def.'s Mot. to Dismiss, ECF No.
10-2) .
Plaintiff alleges that Hankook Tire established a separate
entity, Ocean Capital Investment Limited ("Ocean Capital
Investment") to raise investment funds.
1).

(Compl. at SI 17, ECF No.

Ocean Capital Investment is a Malaysian company.

(Ex. A to

Compl., ECF No. 1-1).
The Complaint alleges that Hankook Tire hired Peninsula
Asset Management in 1998 to act as Ocean Capital Investment's
agent to raise funds for refinancing.
1).

(Compl. at SI 21, ECF No.

Hankook Tire and Defendant Cho allegedly used Peninsula

Asset Management to perpetrate a money-laundering scheme to
transfer $20 million dollars out of the Republic of Korea to an
account in New York.

(Id.)
3

Case l:18-cv-00277-HG-KJM Document 25 Filed 03/21/19 Page 4 of 12

PagelD#:251

Plaintiff Han states three causes of actions solely against
Defendant Cho:
(1)

declaratory relief based on alter ego and/or piercing
the corporate veil;

(2)

fraud and fraudulent inducement; and

(3)

civil conspiracy to commit fraud.

(Compl. at SI! 1-2, 7, 73-94, ECF No. 1) .
The lawsuit is the latest1 in a series of actions filed by
Han, her husband No Joon Park, and their corporation Peninsula
Asset Management.
Tire entities.

They have sued Defendant Cho and the Hankook

(Def.'s Mot. to Dismiss at pp. 1-2, ECF No. 10;

Compl. at !! 1-3, 45-62, ECF No. 1).
Defendant Cho filed a Motion to Dismiss the Complaint.
(Def.'s Mot. to Dismiss, ECF No. 10).
STANDARD OF REVIEW
Pursuant to Federal Rule of Civil Procedure 12(b) (2), a
defendant may move to dismiss a complaint for lack of personal
jurisdiction.
Where a defendant moves to dismiss for lack of personal
jurisdiction, the plaintiff bears the burden of demonstrating

1 Plaintiff Han, Peninsula Asset Management, and Park have
unsuccessfully attempted to sue Defendant Cho and Hankook Tire
several times in other federal district courts. See Peninsula
Asset Management (Cayman), Ltd, v. Hankook Tire Co., Ltd., 2006
WL 2945642 (N.D. Ohio Oct. 13, 2006), rev'd, 509 F.3d 271 (6th
Cir. 2007); Han v. Hankook Tire Co • t Ltd., 2018 WL 4104198 (N.D.
Ohio Aug. 28, 2018); Han v. Fin, Supervisory Serv., 2018 WL
791353 (S.D.N.Y. Feb. 8, 2018).
4

Case l:18-cv-00277-HG-KJM Document 25 Filed 03/21/19 Page 5 of 12

PagelD#:252

CollegeSource, Inc, v.

that the court has jurisdiction.

AcademvOne, Inc., 653 F.3d 1066, 1073 (9th Cir. 2011).
When the motion is based on written materials rather than an
evidentiary hearing, the plaintiff need only make a prima facie
showing of jurisdictional facts to withstand a motion to dismiss
for lack of personal jurisdiction.

Mavrix Photo, Inc, v. Brand

Technologies, Inc., 647 F. 3d 1218, 1223 (9th Cir. 2011); Pebble
Beach Co. v. Caddy, 453 F.3d 1151, 1154 (9th Cir. 2006).
Uncontroverted allegations in the complaint must be taken as
true.

Schwarzenegger v. Fred Martin Motor Co., 374 F.3d 797, 800

(9th Cir. 2004) .

Conflicts between parties over statements in

affidavits must be resolved in plaintiff's favor in evaluating a
12(b)(2) motion to dismiss.

Id.

Where there is no applicable federal statute governing
personal jurisdiction, the district court applies the law of the
state in which the district court sits.

Panavision Int'l, L.P.

v. Toeppen, 141 F.3d 1316, 1320 (9th Cir. 1998).

Hawaii's long-

arm jurisdictional statute is coextensive with federal due
process requirements and the analyses under state law and federal
due process are the same.

Hawaii Forest & Trail Ltd, v. Davey,

556 F.Supp.2d 1162, 1168 (D. Haw. 2008).
ANALYSIS
I.

PERSONAL JURISDICTION
A district court may exercise personal jurisdiction over a

defendant who has sufficient minimum contacts with the forum
5

Case l:18-cv-00277-HG-KJM Document 25 Filed 03/21/19 Page 6 of 12

PagelD#:253

state when "maintenance of the suit does not offend traditional
notions of fair play and substantial justice."

International

Shoe Co. v. Washington, 326 U.S. 310, 316 (1945).
A district court may exercise either general or specific
jurisdiction over a defendant.

Helicopteros Nacionales de

Colombia S.A. v. Hall, 466 U.S. 408, 414-16 (1984); Doe v.
American Nat'1 Red Cross, 112 F.3d 1048, 1050-51 (9th Cir. 1997).
If the defendant's activities are insufficient to subject him to
general jurisdiction, then the court looks to the nature and
quality of the defendant's contacts in relation to the cause of
action to determine whether specific jurisdiction exists.
v. Lake, 817 F.2d 1416, 1420-21 (9th Cir. 1987)

Lake

(citation

omitted).
A.

General Jurisdiction

The United States Supreme Court has held that "[f]or an
individual, the paradigm forum for the exercise of general
jurisdiction is the individual's domicile."
Bauman, 134 S. Ct. 746, 760 (2014)

Daimler AG v.

(quoting Goodyear Dunlop Tires

Operations, S.A. v. Brown, 564 U.S. 915, 924 (2011)).
Courts have in rare instances exercised general jurisdiction
over an individual who is not domiciled in a jurisdiction.

The

individual's contacts with a forum must be so substantial that
"the defendant can be deemed to be 'present' in that forum for
all purposes" so that exercising general jurisdiction over the
defendant does not offend traditional notions of fair play and
substantial justice.

Hendricks v. New Video Channel America,
6

Case l:18-cv-00277-HG-KJM Document 25 Filed 03/21/19 Page 7 of 12

PagelD#:254

LLC, No. 2:14-cv-02989-RSWL-SSx, 2015 WL 3616983, at *4 (C.D.
Cal. June 8, 2015)

(quoting Yahoo! Inc, v. La Lique Contre Le

Racisme Et L'Antisemitisme, 433 F.3d 1199, 1205 (9th Cir. 2006)).
A defendant's frequent visits to a forum, or even his owning
property in a forum, do not, alone, justify the exercise of
general jurisdiction over him.

Id.

(citing Span Constr. & Enq'g,

Inc, v. Stephens, No. CIV-F-06-0286 AWI DLB, 2006 WL 1883391, at
*5 (E.D. Cal. July 7, 2006)).
Plaintiff argues that there is general jurisdiction over
Defendant Cho on the basis of his "physical presence" and
property ownership in Hawaii.
Plaintiff Han alleges as follows in her Complaint:
This Court has personal jurisdiction over Defendant
because Defendant has engaged in continuous and
systematic general business or other contacts that
approximate physical presence in Hawaii. On
information and belief, having decided to live a
retired life in Hawaii, Defendant purchased in his own
name as well as names of his family members and has
continuously maintained his residence in various places
in Hawaii since 1990—including but not limited to a
house located at 5611 Kalanianaole Highway, Honolulu, a
condominium located at 64 Ironwood Lane, Lahaina, and a
condominium located at 1108 Auahi Street 37-A,
Honolulu—which, on information and belief, is valued
in total at over $15 million. Thus, Defendant made
himself at home in this forum; and Defendant's physical
presence in this forum has been substantial enough for
an assertion by this Court of general jurisdiction over
Defendant.
(Compl. at f 11, ECF No. 1).
The mere presence of property in a forum state does not
establish sufficient relationship between the owner of the
property and the forum state to support the exercise of general

7

015a

Case l:18-cv-00277-HG-KJM Document 25 Filed 03/21/19 Page 8 of 12

jurisdiction over an unrelated cause of action.
444 U.S. 320, 328 (1980).

PagelD#:255

Rush v. Savchuk,

General jurisdiction is lacking unless

there are sufficient contacts to satisfy due process.

Id.

Neither Cho's business activities nor the corporate entities that
Plaintiff Han wishes to reach are alleged to have had any
connection to Hawaii.
Defendant's ownership of real estate unrelated to the
allegations in the Complaint is insufficient to confer general
jurisdiction.

Plaintiff does not allege that Defendant has any

significant contacts with Hawaii separate from Defendant's
property ownership.

The Court cannot exercise general

jurisdiction over Defendant based only on his property ownership
in Hawaii.
Plaintiff served Defendant in the Republic of Korea.
Plaintiff did not serve Cho in Hawaii where Plaintiff alleges
that Defendant has made himself "at home."

(Notice of

Commencement of Service in a Foreign Country, ECF No. 9).
The Court cannot exercise general jurisdiction over
Defendant based on property ownership that is unrelated to the
allegations in the complaint.
B.

Specific Jurisdiction

If a defendant is not subject to general jurisdiction, the
forum state may still assert specific jurisdiction based on the
quality and nature of the defendant's contacts with the forum
state.

Lake, 817 F.2d at 1420 (citation omitted).

The

jurisdictional analysis under state law and federal due process
8

Case l:18-cv-00277-HG-KJM Document 25 Filed 03/21/19 Page 9 of 12

PagelD #: 256

are the same because Hawaii's long-arm jurisdictional statute is
coextensive with federal due process requirements.

Hawaii Forest

& Trail Ltd, v. Davev, 556 F.Supp.2d 1162, 1168 (D. Haw. 2008).
The Ninth Circuit Court of Appeals employs a three-part test
which requires the plaintiff to show that:
(1)

the nonresident defendant has purposefully
directed his activities or consummated some
transaction within or with the forum state;

(2)

the claim arises out of or relates to the
defendant's forum-related activity; and

(3)

the exercise of jurisdiction comports with fair
play and substantial justice.

Schwarzenegger, 374 F.3d at 802.
If the plaintiff fails to satisfy either of the first two
prongs of the test, jurisdiction in the forum would deprive the
defendant of due process of law.

Id.

If the plaintiff succeeds

in satisfying both of the first two prongs, the burden then
shifts to the defendant.

Id.

(1) Purposeful Availment
The purposeful availment requirement protects a defendant
from being hauled into a jurisdiction merely because of "random,"
"fortuitous," or "attenuated" contacts with the jurisdiction.
Burger King Corp. v. Rudzewicz, 471 U.S. 462, 475 (1985).
Plaintiff Han does not allege that Defendant Cho, Hankook
Tire, or Ocean Capital Investment conducted business in Hawaii.
The subject matter of the lawsuit relates to actions and
agreements Plaintiff claims took place in South Korea, Malaysia,
and other parts of the United States more than twenty years ago.
9

Case l:18-cv-00277-HG-KJM Document 25 Filed 03/21/19 Page 10 of 12

(Compl.

14-31, ECF No. 1).

PagelD #: 257

There has been no intentional

action alleged to be expressly aimed at Hawaii.

Plaintiff Han

has not demonstrated that Defendant Cho purposely directed any
activities towards the forum.
(2) Arising out of forum-related activities
The second prong requires that the claim arise out of or be
related to the defendant's forum-related activities.

See

Panavision, 141 F.3d at 1322.
Plaintiff does not allege that the claims in the Complaint
arose out of any business transaction, tortious act or contract
action that occurred in Hawaii.
(4) .

See Haw. Rev. Stat. § 634-35(1)-

Plaintiff also does not allege that the claims arose out of

or are related to Defendant Cho's ownership, use, or possession
of real estate in Hawaii.
Plaintiff's fraud based claims arising from the actions of
Hankook Tire and Ocean Capital Investment are unrelated to
Defendant's Cho ownership of property in Hawaii.
(3) Reasonableness
The last prong states that the exercise of jurisdiction must
comport with fair play and substantial justice.

It would be

unreasonable to find specific jurisdiction when Defendant Cho has
not met the first two prongs of the test.

See Panavision, 141

F.3d at 1322.
Defendant Cho is not subject to either general or specific
jurisdiction in Hawaii.

10

Case l:18-cv-00277-HG-KJM Document 25 Filed 03/21/19 Page 11 of 12

C.

PagelD#:258

Plaintiff Han's Request for Jurisdictional Discovery

Plaintiff Han argues that rather than dismiss the action for
lack of personal jurisdiction, Plaintiff should be permitted to
conduct jurisdictional discovery that may reveal Defendant Cho's
ongoing contacts and relationships in Hawaii.

(PI.'s Opp'n at

pp. 3-7, ECF No. 17).
Discovery is warranted where "pertinent facts bearing on the
question of jurisdiction are controverted or where a more
satisfactory showing of the facts is necessary."

Laub v. U.S.

Dep't of the Interior, 342 F.3d 1080, 1093 (9th Cir. 2003).

The

Court may deny jurisdictional discovery where a plaintiff's claim
of personal jurisdiction appears to be both "attenuated and based
on bare allegations in the face of specific denials made by the
defendants."

Pebble Beach Co., 453 F.3d at 1160 (quoting

Terracom v. Valley Nat11 Bank, 49 F.3d 555, 562 (9th Cir. 1995)) .
It is uncontroverted that Defendant Cho is a citizen of
South Korea.

Plaintiff Han does not allege the corporate

entities she wishes to hold accountable have any contacts with
Hawaii.

Plaintiff Han has not provided any basis to justify

jurisdictional discovery.
Plaintiff's request for jurisdictional discovery is DENIED.

CONCLUSION
Defendant's Motion to Dismiss Complaint (ECF No. 10) is
GRANTED.

The Court does not have personal jurisdiction over
11

Case l:18-cv-00277-HG-KJM Document 25 Filed 03/21/19 Page 12 of 12

PagelD#:259

Defendant Cho.
The Court need not review the additional bases for dismissal
raised by Defendant Cho because the Court lacks jurisdiction.
IT IS SO ORDERED.
DATED: March 21, 2019, Honolulu, Hawaii.

Ptelen Gillmor
UmtccTStates District Judge
**6i or

Karen C. Han v. Yanqrai Cho; Civ. No. 18-00277 HG-KJM; ORDER
GRANTING DEFENDANT YANGRAI CHO'S MOTION TO DISMISS COMPLAINT (ECF
No. 10)
12

Case: 19-16073, 08j^pp g |^|80pp^DI0ptry : 11, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
AUG 31 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

No.

KAREN C. HAN,

19-16073

D.C.No. 1:18-CV-00277-HG-KJM
District of Hawaii,
Honolulu

Plaintiff-Appellant,
v.

ORDER

YANGRAICHO,
Defendant-Appellee.
Before:

BERZON, N.R. SMITH, and MILLER, Circuit Judges.

The panel has voted to deny the petition for panel rehearing.
The full court has been advised of the petition for rehearing en banc and no
judge has requested a vote on whether to rehear the matter en banc. See Fed. R.
Civ. P. 35.
Han’s petition for panel rehearing and petition for rehearing en banc (Docket
Entry No. 10) are denied.
No further filings will be entertained in this closed case.

021a

APPENDIX E
Case l:18-cv-00277-KJM-NONE Document 1' Filed 07/18/18 Page lot 39

PagelD#:l

ORIGINAL
Karen C. Han
2512 Carroll Ct.
Flower Mound, Texas 75022
karenhS 14@gmail.com
Phone) 972-355-7480

FILED IN THE

UNITED STATES DISTRICT COURT
DISTRICT OF HAWAII

JUL 18 2018
atLp’dockand1'5' min.O M.
SUE SERIA, CLERIC

Plaintiffproceeding pro se

?

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF HAWAH

CT

^ r

Civil Action No.

Karen C. Han
Plaintiff,
V

«

COMPLAINT

U <Z

V.

a.

CV18 00277 ,m»

g
Yangrai Cho
Defendant.

(JURY TRIAL DEMANDED)

Plaintiff Karen C. Han (“Plaintiff’ or “Han”), as and for her Complaint
against Defendant Yangrai Cho (“Defendant” or “Mr. Cho”), states and alleges
as follows:
NATURE OF THE ACTION
l.

This is a diversity action to seek a judgment against Defendant,

principally asserting claims for piercing-corporate-veil and civil conspiracy to
commit fraud. In this action, as for her piercing-corporate-veil claim, pursuant
to 28 U.S.C. § 2201 and Federal Rule of Civil Procedure (“Fed.R.Civ.P.”) 57
Plaintiff seeks a declaration of vicarious liability of Defendant to Plaintiff—
1

022a

Case l:18-cv-00277-KJM-NONE Document 1 Filed 07/18/18 Page 2 of 39

Page!D#:2

based on a declaration that Ocean Capital Investment (L) Limited (“Ocean”)
was an alter ego of Defendant; and a declaration that Ocean’s corporate veil is
pierced to hold Defendant liable to Plaintiff for any and all debts or obligations
of Ocean related to Plaintiff’s claim against it.
2.

As for her civil conspiracy to commit fraud claim, Plaintiff asserts

that Defendant is jointly and severally liable with Hankook Tire Co., Ltd.
(“Hankook”)—of which Defendant was the controlling shareholder at all times
relevant to this case—for damages resulting from an illegal financial scheme in
an offshore tax haven area planned and implemented by Defendant and
Hankook (collectively, “Hankook Party”)—in which Plaintiff unknowingly
participated at Hankook Party’s instructions pursuant to the terms and
conditions of the relevant contract into which Plaintiff was fraudulently induced
by Hankook Party to enter. Plaintiff brings this action because Hankook Party
refused to indemnify such damages incurred by Plaintiff as agreed by the parties
in the contract described above.
3.

The present case marks Plaintiff’s third litigation effort in this

prolonged legal battle between Hankook Party and Plaintiff. Previously, in 2008,
Plaintiff’s second action against Hankook Party in the United States District
Court for the Northern District of Ohio (the “Ohio Court”) (the “First Ohio
Action”) was dismissed without prejudice for lack of subject matter jurisdiction.
Thereafter, a re-institution of Plaintiff’s claims against Hankook Party has been
2

023a

Case l:18-cv-00277-KJM-NONE Document 1 Filed 07/18/18 Page 3 of 39

PagelD#:3

delayed by a dispute between Plaintiff and the Financial Supervisory Service
(“FSS”), a South Korean corporation without capital, over discovery of
evidence exclusively within FSS’s possession that is critical to both parties’
positions in this case—whether the financial transactions at issue in this case
were in violation of laws or regulations of South Korea such that the contractual
indemnity obligation was triggered to indemnify Plaintiff by Hankook Party.
Since 2005, FSS has refused to cooperate with discovery in the United States,
claiming entitlement to foreign sovereign immunity. This immunity issue
involving FSS was the subject of Plaintiff’s litigation efforts for some ten (10)
years; currently Plaintiff’s action against FSS is pending in the United States
District Court for the District of Columbia, bearing docket number l:18-cv00141-EGS.
4.

On or about September 29, 2017, Plaintiffs action against

Hankook, bearing docket number 5:17-cv-02046-SL (the “Ohio Second
Action”), primarily asserting breach of contract claim was timely re-instituted in
the Ohio Court within Ohio’s fifteen (15) year limitations period applicable to
breach of contract in writing. The limitations period applicable to Plaintiffs
fraud claim against Hankook Party has run while Plaintiff has been disputing
the immunity issue with FSS. However, while Plaintiff has been pursuing her
rights diligently, FSS, acting in concert with Hankook Party, has not only
fraudulently concealed the discovery of Plaintiffs cause of action against
3

024a

Case l:18-cv-00277-KJM-NONE Document 1 Filed 07/18/18 Page 4 of 39

PagelD#:4

Hankook Party, but has also unlawfully or improperly hampered proof of
Plaintiffs case by refusing to provide evidence without any valid grounds. As
such, Plaintiff is entitled to invoke equitable tolling to save her fraud claim
against Hankook Party in this action as well as the Second Ohio Action.
5.

Plaintiff files with this Court this lawsuit against Defendant

separately from the Second Ohio Action because at the time of the filing of the
Second Ohio Action, Hankook Party rejected Plaintiffs proposal to litigate her
cause of action against Hankook Party in the Ohio Court (or any other forum)—
which, on information and belief, does not have personal jurisdiction over
Defendant.
PARTIES AND RELEVANT NON-PARTIES
6.

Plaintiff Han is a citizen of the State of Texas. Han is pursuing

this cause of action against Defendant individually and as the real party in
interest for Peninsula Asset Management (Cayman) Ltd. (“Peninsula”), which is
now defunct.
7.

Defendant Cho, a citizen of South Korea, was, at all times

material hereto, the Chairman of the Board and controlling shareholder of
Hankook, and is currently the Chairman of the Board and controlling
shareholder of Hankook Tire Worldwide Co., Ltd., a holding company of
Hankook. Non-party Hankook is a global corporate conglomerate organized and
existing under the laws of South Korea, with its principal offices located in
4

025a

Case l:18-cv-00277-KJM-NONE Document 1 Filed 07/18/18 Page 5 of 39

PagelD#:5

Seoul, South Korea. Mr. Cho and Hankook were named as co-defendants in the
First Ohio Action. No relief is sought herein against Hankook because upon
information and belief, this Court has no personal jurisdiction over Hankook,
and parallel relief against Hankook is sought by Plaintiff in the Second Ohio
Action. Thus, Hankook is included in this Complaint primarily to present
factual allegations.
8.

Non-party FSS is a civil special corporation without capital

established under the laws of South Korea, with its principal offices located in
Seoul, South Korea, which maintains branch offices in New York, NY and
Washington, D.C.
9.

Non-party No Joon Park (“Park”) is the spouse of Han, residing

in the State of Texas with Han. Park was an additional plaintiff principally
related to a fraud-related claim in the First Ohio Action. Park seeks no relief
against Defendant in this action because his claim for damages is largely
duplicative of Plaintiff’s. He is included in this Complaint primarily to present
factual allegations.
.JURISDICTION AND VENUE
10.

The Court has jurisdiction over this matter and the parties

pursuant to 28 U.S.C. § 1332(a) because there is complete diversity of
citizenship between Plaintiff and Defendant, and the amount in controversy
exceeds $75,000.00 exclusive of costs.
5

026a

Case l:18-cv-00277-KJM-NONE Document 1 Filed 07/18/18 Page 6 of 39
11.

PagelD #: 6

This Court has personal jurisdiction over Defendant because

Defendant has engaged in continuous and systematic general business or other
contacts that approximate physical presence in Hawaii. On information and
belief, having decided to live a retired life in Hawaii, Defendant purchased in
his own name as well as names of his family members and has continuously
maintained his residence in various places in Hawaii since 1990—including but
not limited to a house located at 5611 Kalanianaole Highway, Honolulu, a
condominium located at 64 Ironwood Lane, Lahaina, and a condominium
located at 1108 Auahi Street 37-A, Honolulu—which, on information and belief,
is valued in total at over $15 million. Thus, Defendant made himself at home in
this forum; and Defendant’s physical presence in this forum has been
substantial enough for an assertion by this Court of general jurisdiction over
Defendant.
12.

Venue is proper in this Court pursuant to 28 U.S.C. § 1391(b)

because Defendant resides in this judicial district.
FACTUAL ALLEGATIONS
13.

Plaintiff incorporates by reference the allegations set forth above

as if fully set forth herein.
Hanknnk Party’s Illegal Financial Activities in Offshore Tax Haven Area
14.

The events and transactions that gave rise to Plaintiff’s claims in

this action concern Hankook Party’s illegal financial activities in an offshore tax
6

027a

l(p9/18 Page 1 of 13

Case l:18-cv-00277-KJM-NON

PagelD #:

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF HAWAIT
KAREN C. HAN,

) CIVIL NO. 18-00277 KJM
)

Plaintiff,
vs.

) MEMORANDUM IN SUPPORT OF
) MOTION
)
)

YANGRAICHO,

)
)

Defendant.

)
)

MEMORANDUM IN SUPPORT OF MOTION
I.

INTRODUCTION
As briefly explained in Defendant’s Motion to Dismiss Complaint, the

instant lawsuit brought by Plaintiff KAREN C. HAN (“Plaintiff’ or “Han”) is the
latest of many prior actions that Han, her husband, No Joon Park (“Park”) and their
company, Peninsula Asset Management (Cayman) Ltd. (“Peninsula”) have brought
and lost against Defendant Yangrai Cho (“Cho”) and Hankook Tire Worldwide
Co., Ltd. (“Hankook”) related to agreements between Peninsula and an entity
called Ocean Capital Investment Limited (“Ocean”). Following dismissal of prior
actions filed in Texas and Ohio, Plaintiff Han brought the instant Complaint
asserting claims against Defendant Cho for declaratory relief based on alter

028a

Case l:18-cv-00277-KJM-NONE Document 10-1 Filed 10/29/18 Page 2 of 13
94

PagelD#:

ego/piercing the corporate veil, fraud and fraudulent inducement and civil
conspiracy to commit fraud.
The Motion seeks dismissal of the action based on lack of personal
jurisdiction (Federal Rules of Civil Procedure Rule 12(b)(2)), lack of subject
matter jurisdiction (Federal Rules of Civil Procedure Rule 12(b)(1)); failure to state
a claim upon which relief can be granted (Federal Rules of Civil Procedure
Rule 12(b)(6)); and failure to join indispensable parties under Federal Rules of
Civil Procedure Rule 19 (Federal Rules of Civil Procedure Rule 12(b)(7)).
II.

APPLICABLE LAW AND STANDARDS OF REVIEW
A court should dismiss a suit for failure to state a claim upon which relief

can be granted if the complaint does not provide fair notice of the claim and does
not state factual allegations showing that the right to relief is plausible. See
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009); BellAtl. Corp. v. Twombly, 550 U.S.
544, 555-56 & n.3 (2007). While the Court must construe the Complaint in a light
most favorable to Plaintiff, a claim must be supported by factual allegations such
that it is “plausible on its face.” A claim is facially plausible when the plaintiff
pleads factual content that allows the court to draw the reasonable inference that
the defendant is liable for the misconduct alleged. Twombly, 550 U.S. at 570, and
Iqbal, 129 S.Ct. at 1949.

2

029a

Case l:18-cv-00277-KJM-NONE Document 10-1 Filed 10/29/18 Page 3 of 13
95

PagelD #:

Courts may “consider certain materials—documents attached to the
complaint, documents incorporated by reference in the complaint, or matters of
judicial notice—without converting the motion to dismiss into a motion for
summary judgment.” United States v. Ritchie, 342 F.3d 903, 908 (9th Cir.2003);
See also Cooper v. Pickett, 137 F.3d 616, 622-23 (9th Cir.1997) (When ruling on a
motion to dismiss, a court may also consider documents central to the allegations
in a complaint even if the documents are not attached to the complaint, so long as
the authenticity of the documents is undisputed.); United States ex rel. Robinson
Rancheria Citizens Council v. Borneo, Inc., 971 F.2d 244, 248 (9th Cir.1992)
(Courts “may take notice of proceedings in other courts, both within and without
the federal judicial system, if those proceedings have a direct relation to matters at
issue.”).
III.

THIS COURT LACKS PERSONAL JURISDICTION OVER
DEFENDANT SUCH THAT RULE 12(b)(2) APPLIES
Defendant moves for dismissal under F.R.C.P. 12(b)(2) for a lack of

personal jurisdiction as Defendant is a Korean citizen who is not a citizen or
resident of the Hawaii. (Complaint, Doc. #1, PagelD #4, ^6). Hawaii’s long-arm
statute provides that any person whether or not a citizen or resident of the state
submits to jurisdiction of Hawaii if the cause of action arises from the transaction
of any business in the state, commission of a tortious act within the state,
ownership, use, or possession of real estate, or contract to insure a person,
3

030a

Case l:18-cv-00277-KJM-NONE Document 10-1 Filed 10/29/18 Page 4 of 13
96

PagelD#:

property, or risk located in the state at the time of contracting. See HRS ^63435(a). Hawai‘i Revised Statutes §634-35(c) requires that the cause of action relate
to the defendant's contacts in Hawaii. Commercial Insurance Company ofNewark,
New Jersey v. Pacific-Pent Construction Corporation, 558 F.2d 948, 955 (9th Cir.
1977); Hawaii Credit Card Corp. v. Continental Credit Card Corp., 290 F.Supp.
848,851 (D.Hawaii 1968).
Here, while Defendant owns vacation property in Hawaii, this lawsuit does
not relate in any way to the ownership of that property. The subject matter of the
lawsuit relates to actions and agreements that took place in Malaysia and/or Korea
more than 20 years ago. (Complaint, Doc. #1, PagelD #6-15, f 14-31). As
property ownership alone is insufficient to confer personal jurisdiction over a
defendant, the Court lacks personal jurisdiction over Defendant Cho in this action.
Resorts World At Sentosa Pte Ltd. v. Chan, CV 15-00499 DKW-KJM, 2016 WL
1587219, at *3 (D. Haw. Apr. 18,2016).
IV.

DISMISSAL IS WARRANTED UNDER FRCP RULES {T2¥b¥D AND

12(b) m
It is well-established that “[t]he party asserting subject matter jurisdiction
has the burden of proving its existence.” Robinson v. United States, 586 F.3d 683,
685 (9th Cir.2009). Here, the Complaint asserts that this Court has jurisdiction
over the matter and parties pursuant to 28 U.S.C. § 1332(a) based on complete
diversity of citizenship. Diversity jurisdiction, however, does not encompass
4

031a

Case l:18-cv-00277-KJM-NONE Document 10-1 Filed 10/29/18 Page 5 of 13
97

PagelD#:

foreign plaintiffs suing foreign defendants.” Faysound Ltd. v. United Coconut
Chemicals, Inc., 878 F.2d 290, 294 (9th Cir. 1989) quoting Cheng v. Boeing Co.,
708 F.2d 1406,1412 (9th Cir.) cert, denied, 464 U.S. 1017,104 S.Ct. 549, 78
L.Ed.2d 723 (1983).
Under Federal Rules of Civil Procedure Rule 19, a necessary and
indispensable party whose presence would destroy subject-matter jurisdiction
requires dismissal of the case. Republic ofPhilippines v. Pimentel, 553 U.S. 851,
862-63, 871-72 (2008). In this case, Peninsula is an indispensable party to
Plaintiffs claims. The issue of whether or not Peninsula is an indispensable party
has been determined twice by the United States District Court Eastern Division of
Ohio. See Exhibit “A” attached hereto and incorporated by reference. Peninsula’s
inclusion as a Plaintiff would place foreigners on both sides of the case thus
destroying diversity jurisdiction (Peninsula is a Grand Cayman Islands corporation
and Defendant Cho is a citizen of Korea).
Han alleges she has standing and capacity to sue not just in her own name
but as “the real party in interest for Peninsula, which is now defunct.” (Compl., ]f6,
PagelD #4). Under FRCP Rule 17(b)(3), parties like Han who purport to sue in a
representative capacity have their capacity determined by the law of the forum
state. The general rule is that a corporation and its shareholders are to be treated as
distinct legal entities. Chung v. Animal Clinic, Inc., 63 Haw. 642, 645,636 P.2d

5

032a

Case l:18-cv-00277-KJM-NONE Document 10-1 Filed 10/29/18 Page 6 of 13

PagelD#:

98

721, 723 (1981). “[Stockholders and guarantors of a corporation do not have the
right to pursue an action on their own behalf when the cause of action accrues to
the corporation.” Joy A. McElroy, M.D., Inc. v. Maryl Group, Inc., 107 Hawai'i
423, 431,114 P.3d 929, 937 (Ct. App. 2005), as amended (June 14,2005).
Han’s claims are inextricably intertwined with conduct involving Peninsula
as a corporate entity, as all actions complained of were actions taken by Peninsula
(presumably through Han and Park) related to the contract between Peninsula and
Ocean. Moreover, under FRCP Rule 23.1 and HRCP Rule 23.1, the shareholder
must file a verified complaint alleging facts with particularity, including all efforts
to convince corporate directors, shareholders, or members to file the action at
issue. Plaintiff has failed to do so.
Here, to the extent Han sues as a shareholder on Peninsula’s behalf, she (1)
lacks standing and capacity to sue and (2) has not satisfied Rule 23.1. Indeed, she
readily admits in her complaint and brief that Peninsula isn’t a party to this action
but is “defunct.” Han's attempt to sue on Peninsula's behalf cannot prevent
dismissal because the Ohio Court previously ruled that Peninsula was an
indispensable party. Peninsula's presence there destroyed diversity and deprived
the court of jurisdiction just as it does in this case. Han has filed this action
without naming Peninsula so as to evade the diversity rule. But she cannot finesse
this joinder/diversity quandary by alleging, contrary to the authorities cited above,

6

033a

Case l:18-cv-00277-KJM-NONE Document 10-1 Filed 10/29/18 Page 7 of 13
99

PagelD#:

that she can act as Peninsula's representative by bringing this action in her own
name.
Nor does Han's allegation that Peninsula is "defunct" require a different
result. If Peninsula is truly "defunct," Han made it so by "decid[ing] to discontinue
Peninsula's business." (Compl., TJ29, PagelD #14). Further, Han previously
epresented to the Ohio Court that although Peninsula had ceased doing business, it
"has not been liquidated yet and still exists legally"-that it "exists for this lawsuit
while it is dormant business-wise." (Case No. 5:04-cv-01153-DDD; Doc. #216,
PagelD #8681-8682). Thus, the fact that Peninsula may be "defunct" from a
business standpoint doesn't mean it ceased to exist for joinder purposes.
V.

DISMISSAL IS WARRANTED UNDER FRCP RULE 12(b)(6) (FAILURE
TO STATE A CLAIM)
The claims against Defendant Cho are based on allegations that Ocean is an

alter ego of Defendant Cho and Hankook where there have been no judgments
obtained or actions pursued to determine Ocean’s liability. (See Compl. At fflfs 7480). “Piercing the corporate veil is not itself an independent... cause of action,
‘but rather is a means of imposing liability on an underlying cause of action.’”
Peacock v. Thomas, 516 U.S. 349, 354 (1996). Thus, an underlying claim or
judgment against an underlying corporate entity is a prerequisite to piercing the
veil and pursuing a shareholder. See In re Expert South Tulsa, LLC, 506 B.R. 298,
301 (Bankr. D. Kan. 2011) (Alter-ego doctrine “merely imposes liability against a
7

034a

Case l:18-cv-00277-KJM-NONE Document 10-1 Filed 10/29/18 Page 8 of 13
100

PagelD #:

second corporation or individual upon an underlying cause of action ... brought
against the first corporation.”); Hardy v. Brock, 826 So.2d 71, 75-76 (Miss. 2002)
(“[F]or there to be alter ego liability placed on one shareholder of a corporation,
there must be a claim in existence against the corporation....”); Five Points Hotel
Partnership v. Pinsonneault, 2014 WL 1713623, *4 (D. Ariz.) (action to pierce
corporate veil “is merely a procedure to enforce an underlying judgment.’”);__
Powertrain, Inc. v. Ma, 88 F.Supp.3d 679,703 (N.D. Miss. 2015).
Here, Han has not obtained a judgment against Ocean, and she cannot obtain
one now because Ocean isn’t a party to this case and the Ohio case has been
dismissed with prejudice. See Exhibit “B” attached hereto and incorporated by
reference. Further, Han alleges that Ocean’s only share was issued to a Malaysian
company, not to Hankook. (Doc. #1 at PagelD #:33, f75). Piercing the corporate
veil is not an available remedy because Han hasn’t alleged that Defendant or
Hankook was an Ocean shareholder. Even if the factual allegations are assumed to
be true, they do not show a right to relief that is more than speculative as there is
no judgment against Ocean or Hankook, and in fact, Plaintiffs lawsuit against
Hankook has been dismissed in the Ohio Court. Twombly, 550 U.S. at 555; See
Iqbal, 556 U.S. at 678-79.
Moreover, Plaintiffs claims are subject to a six-year statute of limitations
because they sound in fraud. “Personal actions of any nature whatsoever not

8

035a

Case l:18-cv-00277-KJM-NONE Document 10-1 Filed 10/29/18 Page 9 of 13

101

PagelD #:

specifically covered by the laws of the State” have a limitations period of six years.
HRS § 657-1(4). Claims sounding in fraud, whether based on state or federal law,
are governed by this six-year statute of limitations. Mroz v. Hoaloha Na Eha, Inc.,
360 F.Supp.2d 1122,1135 (D.Haw.2005) (citing Eastman v. McGowan, 86 Hawai'i
21, 946 P.2d 1317,1323 (1997)); See alsoAu v. Au, 63 Haw. 210,217, 626 P.2d
173,179 (1984) (holding that “[s]ince fraudulent representations are not governed
by a specific limitations period, the general limitations period set forth in HRS §
657-1(4) applies”); Trostv. Embemate, 2011 WL 6101543, *3 (D.Haw. Dec. 7,
2011) (“Accordingly, because Plaintiffs Complaint asserts a breach of fiduciary
duty claim based on fraud, the applicable statute of limitations is HRS § 6571(4).”). “Claims for fraud, whether based on state or federal law, arise when the
fraud is or should have been discovered.” Mroz, 360 F.Supp.2d 1122,1135 (citing
First Interstate Bank v. Hartley, 681 F.Supp. 1457, 1460 (D.Haw. 1988)); See also
Assoc, of Apartment Owners ofNewtown Meadows ex rel. its Bd. ofDirs. v.
Venture 15, Inc., 115 Hawai'i 232,270,167 P.3d 225,277 (2007) (Holding that
under HRS § 657-7, “a claim accrues when the plaintiff discovers, or through the
use of reasonable diligence should have discovered[,]” the cause of action.).
In this case, Plaintiff was aware of the facts and causes of action since at
least 2002 when the first lawsuit was filed in Texas or at the latest in 2004 when

9

036a

Case l:18-cv-00277-KJM-NONE Document 10-1 Filed 10/29/18 Page 10 of 13
#: 102

PagelD

the first Ohio lawsuit was filed. Therefore, all of Plaintiffs claims are barred by
the applicable statute of limitations.
Plaintiff Han invokes “equitable tolling” in an attempt to rescue her timebarred fraud claims. Her Complaint states in conclusory fashion that Financial
Supervisory Service (“FSS”), a South Korean entity, acted in concert with
Hankook to fraudulently conceal discovery of Han’s claims against Hankook. She
also alleges that FSS “hampered proof of Plaintiff s case by refusing to provide
evidence without any valid grounds.” (Compl., *|f4 at PageID#:4). But this court
need not accept as true mere legal conclusions. And “[t]hreadbare recitals of the
elements of a cause of action, supported by mere conclusory statements, do not
suffice.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009).
Significantly, Han makes no specific allegation of how Defendant Cho acted
in concert with the FSS or of any actions taken by Defendant Cho. Equitable
tolling should be used “sparingly” and only “where the claimant has actively
pursued his judicial remedies by filing a defective pleading during the statutory
period, or where the complainant has been induced or tricked by his adversary's
misconduct into allowing the filing deadline to pass.” Irwin v. Dept, of Veterans
Affairs, 498 U.S. 89, 96 (1990). “’[L]ong-settled equitable-tolling principles’
instruct that “ ‘[generally, a litigant seeking equitable tolling bears the burden of
establishing two elements: (1) that he has been pursuing his rights diligently, and

10

037a

Case l:18-cv-00277-KJM-NONE Document 10-1 Filed 10/29/18 Page 11 of 13
#: 103

PagelD

(2) that some extraordinary circumstances stood in his way.’ ” Credit Suisse, 132
S.Ct. at 1419 (quoting Pace v. DiGuglielmo, 544 U.S. 408,418,125 S.Ct. 1807,
161 L.Ed.2d 669 (2005) (emphasis omitted)); See also Ramirez v. Yates, 571 F.3d
993, 997 (9th Cir.2009).
As to the first element, “[t]he standard for reasonable diligence does not
require an overzealous or extreme pursuit of any and every avenue of relief. It
requires the effort that a reasonable person might be expected to deliver under his
or her particular circumstances.” Doe v. Busby, 661 F.3d 1001, 1015 (9th
Cir.2011). Central to the analysis is whether the plaintiff was “without any fault” in
pursuing his claim. Fed. Election Comm'n v. Williams, 104 F.3d 237,240 (9th
Cir.1996). Kwai Fun Wong v. Beebe, 732 F.3d 1030, 1052 (9th Cir. 2013), affd
and remanded sub nom. United States v. Kwai Fun Wong, 135 S. Ct. 1625, 191 L.
Ed. 2d 533 (2015). “With regard to the second showing, ‘a garden variety claim of
excusable neglect, such as a simple miscalculation that leads a lawyer to miss a
filing deadline, does not warrant equitable tolling.’ Holland, 130 S.Ct. at 2564
(internal quotation marks and citations omitted). Instead, a litigant must show that
‘extraordinary circumstances were the cause of his untimeliness and... ma[de] it
impossible to file [the document] on time.’ Ramirez, 571 F.3d at 997 (internal
quotation marks and citations omitted) (second alteration in original). Accordingly,
‘[e]quitable tolling is typically granted when litigants are unable to file timely

11

038a

Case l:18-cv-00277-KJM-NONE Document 10-1 Filed 10/29/18 Page 12 of 13
#: 104

PagelD

[documents] as a result of external circumstances beyond their direct control.’
Harris v. Carter, 515 F.3d 1051,1055 (9th Cir.2008). Kwai Fun Wong, 732 F.3d at
1052.
Han claims her delay in re-filing her case against Hankook was due to a
dispute between her and FSS. She cites to a 2018 federal court case—Case No.
1:18-cv-OO 141 -EGS—filed in the District of Columbia to show that she diligently.
pursued documents to prove claims in this suit. (Compl., 13, PagelD#: 3). Thus,
Han’s evidence of “diligence” is a lawsuit filed ten years after the United States
District Court in Ohio dismissed Han’s first federal case against Hankook.
Plaintiff fails to mention a case cited in the second Ohio lawsuit, a 2017 federal
case- Case No. 17-cv-04383-GBD-BCM—filed in the Southern District of New
York, where Han brought claims against the FSS, which has been dismissed. The
docket of the New York case shows it was dismissed in February 2018, and no
appeal was filed. (Exhibits C, D, and E). Moreover, the New York court held an
oral argument in that case. (Exhibit F). During that argument, Han’s counsel
stated that Han delayed her filing due to an “unfavorable political climate” in
South Korea. See (Exhibit F at 8-9). When asked if any statute allowed tolling
when a political climate is unfavorable, Han’s counsel said Han intended to argue
that in the Ohio court. Id. at 8-9.

12

039a

Case l:18-cv-00277-KJM-NONE Document 10-1 Filed 10/29/18 Page 13 of 13
#: 105

PagelD

In sum, Han’s Complaint offers no basis for the conclusory statement that
she is entitled to equitable tolling, especially in light of her comments in the
New York action. Moreover, she does not even attempt to explain why any FSS
action should be attributable to Defendant Cho. Defendant Cho made no
representations about statutes of limitation and did nothing to trick Han into
delaying her filing. Han claims she needed more evidence, but she.sued Hankook
in Texas in 2002, and she sued Hankook in the Ohio Court in 2004 under the same
set of facts and actions. She should have pursued evidence through discovery
years ago and the instant action is time-barred.
V.

CONCLUSION
Because the allegations of the Complaint demonstrate that Plaintiff Han

cannot possibly prevail, Defendant Cho respectfully requests dismissal of the
Complaint as a matter of law based on lack of personal jurisdiction, lack of subject
matter jurisdiction, failure to state a claim upon which relief can be granted and
failure to join indispensable parties under Federal Rules of Civil Procedure
Rule 19.
DATED: Honolulu, Hawaii, October 29,2018.
/s/ Nadine Y. Ando
NADINE Y. ANDO
Attorney for Defendant
YANGRAI CHO
13

040a

APPENDIX G
Case: 19-16073, 07/22/2019, ID: 11373173, DktEntry: 2-3, Page 6 of 121
Case l:18-cv-00277-HG-KJM Docq^pt^g (^f|^|9^17/19 Page 1 of 22 PagelD#:274

OR! Dl
?!
S

FILED IN THE
UNITED STATES DISTRICT COURT
DISTRICT OF HAWAII

Karen C. Han
2512 Carroll Ct.
Flower Mound, Texas 75022
karenhS 14@graail.com
Phone) 972-355-7480

APR 1 7 2019
at

o'clock and
min.A M
SUE BEITIA, CLERK

Plaintiffproceeding pro se
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF HAWAII
Civil No. 18-cv-00277-HG-KJM

KAREN C. HAN
Plaintiff

MEMORANDUM IN SUPPORT
OF MOTION; EXHIBIT "A" DECLARATION OF NO JOON
PARK

v.

YANGRA1 CHO,
Defendant.

Received By Mail
Date Uhl ||q

Mailed On
Date

'-X

Case: 19-16073, 07/22/2019, ID: 11373173, DktEntry: 2-3, Page 15 of 121
Case l:18-cv-00277-HG-KJM Document 30 Filed 04/17/19 Page 9 of 22

PagelD#:282

Korea," which was Mr. Cho's place of business.1 (See Summons, ECF No. 3 at
PagelD # 71) Thereafter, Plaintiff served such summons and die Complaint on
Mr. Cho at his place of business in South Korea through the Hague Service
Convention. (See Notice of Commencement of Service in a Foreign Country,
ECF No. 9)
C Mr. Cho’s Failure To Submit His Declaration To Rebut His Actual
Residency In Hawaii
On October 29,2018, Mr. Cho filed his motion to dismiss the Complaint
based on various grounds, including for lack of personal jurisdiction ("Motion
To Dismiss").2 (ECF No. 10) However, Mr. Cho failed to submit any sworn
evidence in the form of affidavit or declaration alongside die Motion to Dismiss
in order to rebut his alleged actual residency in Hawaii or contacts with Hawaii
that proximate his physical presence in Hawaii, based on which Plaintiff claims
the Court can exercise general personal jurisdiction over him.
1 In an apparent attempt to save time and money, Plaintiff chose to serve Mr.
Cho at his well-known place of business in South Korea, rather than at his home
in Hawaii, because Plaintiff did not know for sure where to serve Mr. Cho in
Hawaii as he has multiple, at least three, residential addresses in Hawaii
2 Mr. Cho retained Ms. Ando of McCorriston Miller Mukai MacKinnon LLP as
his counsel. Recently, it was drawn to Plaintiffs attention that the Honorable
Judge Kenneth J. Mansfield had worked for the same law firm for more than 15
years before he was selected as a Magistrate Judge for this Court. Currently,
Plaintiff lacks die requisite information or knowledge to develop any theory or
claim for any impropriety regarding this matter such as ex parte communication.
However, Plaintiff preserves this point for review on appeal, if any, or in any
other proceedings, particularly given that in this Motion, Plaintiff claims that
the Order is manifestly unjust
4

ER0029

042a

1:18-cv-00277-HG-KJM

Korea's Financial S

2021.1.21.

Imjauij ty, For Now - Kelley Drye & Warren LLP

pn

[Cprea's FfasaeteE Su!p)®n®®@rf Ssrwfc®
OrnTiriTTioxiTTin'Gsfr F@r IM@w
K®tmhm
Kelley Drye Client Advisory

MARCH 70, 2018

y^%k
sS
fjgg

In the United States, unlike in many civil law jurisdictions, the federal courts are vested with
broad civil subpoena power. That power, however, is limited by the Foreign Sovereign
Immunities Act (FSIA), 28 U.S.C. §§ 1602-1611, which exempts most foreign states and their
"instrumentalities" from the jurisdiction of the U.S. Courts.
In January 2009, the Korean Ministry of Finance and Economy (MOFAE) decided to release the
Financial Supervisory Service of the Republic of Korea (FSS), the nation's principal financial
regulator, from its prior designation as "public institution" in order "to secure [its] autonomy
and independence... from the government." In a recent decision, the U.S. District Court
declined to rule whether that decision by the MOFAE caused the FSS to lose its FSIA exemption.
Three years prior, the U.S. Court of Appeals for the Second Circuit had ruled that the FSS did
have sovereign immunity, finding that it "has oversight duties similar to this country's Securities
and Exchange Commission." Peninsula Asset Mgmt. (Cayman) v. Hankook Tire Co., 476 F.3d 140,
142 (2d Cir. 2006). The Court of Appeals came to that conclusion by applying the five-factor test
set forth in Filler v. Hanvit Bank, 378 F.3d 213, 217 (2d Cir. 2004), a case in which the Court
granted FSIA status to the Korean Deposit Insurance Corporation.
In 2017, however, plaintiff Karen C. Han sought to revisit Peninsula Asset Mgmt. in light of the
MOFAE's 2009 decision. She filed a declaratory judgment action in the U.S. District Court for the
Southern District of New York (Manhattan), a district in which the FSS maintains an office. Han v.
Financial Supervisory Service, 17-CV-4383.
https://www.kelleydrye.com/News-Events/Publications/Client-Adviso^1^eQfQncial-Supervisory-Service-Retains-Sove

1/3

2021.1.21.

Korea's Financial Supervisory Service Retains Sovereign Immunity, For Now - Kelley Drye & Warren LLP

The 2017 case is the latest chapter in a fifteen-year legal battle between plaintiff Han and nonparty Hankook Tire Co., Ltd. (Hankook), a South Korean corporation with facilities in Ohio. In
1988, a corporation known as Peninsula Asset Management (Cayman) Ltd. (Peninsula), of which
Han was the sole shareholder, had contracted with Hankook to place certain zero coupon notes
issued by a Malaysian investment company. Hankook's acquisition of the notes allegedly
caused Peninsula to inadvertently violate South Korean money laundering laws.
Han and Peninsula responded by bringing suit against Hankook in Texas and Ohio, asserting
contractual indemnity and other causes of action. In March, 2005, the plaintiffs in the Ohio
action served the FSS with a subpoena in New York seeking testimony and documents about
the FSS's investigation of the matter. When the FSS declined to comply with the subpoena, the
District Court denied the plaintiffs' motion to hold the FSS in contempt. On appeal, the Second
Circuit affirmed that denial, holding that: "FSS is entitled to foreign sovereign immunity" since it
is "an agency or instrumentality of a foreign state." Peninsula, 476 F.3d at 143-44.
Deprived the evidence they claimed to need from the FSS, Han and the other plaintiffs lost their
case against Hankook. Last year, however, Han returned to Court, seeking a declaration that
FSS was no longer a sovereign subject to immunity, but rather was now required to comply with
her subpoena. The FSS responded by moving to dismiss Han's action, claiming it remained
exempt from federal court jurisdiction under FSIA.
In support of its motion, the FSS submitted, inter alia, the affidavit of Seong Taek Shin, who
served as Korea's Chief Justice of the Supreme Court from 1994-2000. Mr. Shin explained that
the FSS remains a "quasi-government supervisory authority" under Korean law, and thus is still
subject to FSIA immunity under American law.
The District Court referred the FSS's motion to the Magistrate, who recommended that the case
be dismissed on the ground that the case did not present an "actual case or controversy" as
required by Article III of the U.S. Constitution and the Declaratory Judgment Act, 28 U.S.C.
§ 2201 (a). According to the Magistrate: "Plaintiff Han has also put the cart before the horse. At
the time she filed this action, she had no case pending against Hankook, in any jurisdiction, and
therefore no means of obtaining or serving a subpoena upon FSS."
On February 8, 2018, the District Court issued a Decision and Order adopting the Magistrate's
Report, finding that "plaintiff must clear a number of hurdles [in the Ohio action against
Hankook] before the foreign sovereign immunity question posed by her putative declaratory
judgment action can cross the line from an abstract question to an actual controversy." In so
ruling, the District Court left unresolved the underlying question of whether the FSS still
qualifies for exemption under FSIA.
Meanwhile, Hankook has recently moved to dismiss Han's latest complaint on a number of
substantive grounds. That motion is pending. Han v. Hankook Tire Co., Ltd., 5:17-CV-02046. If it
is granted, then the FSIA question will remain unanswered for the foreseeable future.
For now, the FSS remains a state instrumentality, immune from discovery in the U.S. courts.
That, however, does not limit voluntary intergovernmental requests. For example, in 2015, the
https://www.kelleydrye.com/News-Events/Publications/Client-Advisolei

Incial-Supervisory-Service-Retains-Sove

2/3

2021.1.21.

Korea's Financial Supervisory Service Retains Sovereign Immunity, For Now - Kelley Drye & Warren LLP

U.S. Commodity Futures Trading Commission executed a Memorandum of Understanding with
the FSS and the Korean Financial Services Commission to cooperate and exchange "information
in the supervision and oversight of clearing organizations that operate on a cross-border basis
in both the United States and the Republic of Korea." And, just a few weeks ago, the New York
State Department of Financial Services asked the FSS and Korea's Financial Intelligence Unit to
provide it with crypt-currency data from six major Korean banks.
As a result, it is conceivable that FSS materials and information exchanged in this manner may
yet find their way into U.S. litigation.

https://www.kelleydrye.com/News-Events/Publications/Client-Advi so^^l^e^^F^^ncial*Supervisory-Service-Retains-Sove

3/3

